                    AUDIT OF HUBERT H. HUMPHREY
                    JOB CORPS CENTER EXPENSES

                    CONTRACT NUMBER 5-JC-767-27

                     MAY 31, 2000




HARPER, RAINS, STOKES & KNIGHT, P.A.
  CERTIFIED PUBLIC ACCOUNTANTS
                                      RIDGELAND, MISSISSIPPI




MEMORANDUM FOR:                  RAYMOND J. UHALDE
                                 Deputy Assistant Secretary
                                  for Employment and Training


FROM:                            JOHN J. GETEK
                                 Assistant Inspector General
                                   for Audit


SUBJECT:                         Hubert H. Humphrey Center Expenses
                                 For the period June 1, 1999 through May 31, 2000
                                 Final Audit Report No. 02-01-205-03-370


The attached final report is submitted for your resolution action. We request a response to this report
within 60 days. It is your office’s responsibility to transmit a copy of this report to Vinnell Corporation
officials. However, we are providing a courtesy copy directly to them. If you have any questions
concerning this report, please contact Richard H. Brooks, Regional Inspector General for Audit, at
(212) 337-2566.


Attachment


cc: Richard Trigg, Job Corps
    Brian Colan, Vinnell Corporation
                                   AUDIT OF
                              HUBERT H. HUMPHREY
                           JOB CORPS CENTER EXPENSES

                           CONTRACT NUMBER 5-JC-767-27
                          JUNE 1, 1999 THROUGH MAY 31, 2000




                                    FINAL REPORT




This audit was performed by Harper, Rains, Stokes & Knight, P.A., CPAs, under contract
to the Office of Inspector General, and by acceptance, it becomes a report of the Office of
Inspector General.




                                                   Assistant Inspector General for Audit




                                          REPORT NO: 02-01-205-03-370
                                          DATE ISSUED: MARCH 22, 2001
                                                  TABLE OF CONTENTS



ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

INTRODUCTION:

          BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

          AUDIT OBJECTIVE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

          AUDIT SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

INDEPENDENT AUDITORS’ REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

          FINDINGS AND RECOMMENDATION

          I          FINANCIAL REPORTING . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

          II         COST OVERRUN - $86,683 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

EXHIBIT

     CONSOLIDATED SCHEDULE OF NET CENTER OPERATION EXPENSE CATEGORIES
     - JUNE 1, 1999 THROUGH MAY 31, 2000 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

APPENDIX

     VINNELL RESPONSE TO DRAFT REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
                 ACRONYMS


DOL       U. S. Department of Labor

ETA       Employment and Training Administration

FAR       Federal Acquisition Regulation

FY        Fiscal Year

HJCC      Hubert H. Humphrey Job Corps Center

OIG       Office of Inspector General

PRH       Job Corps Policy and Requirements Handbook

VINNELL   Vinnell Corporation a TRW Company




                             i
                              EXECUTIVE SUMMARY

Harper, Rains, Stokes & Knight, P.A., under contract to the Department of Labor (DOL), Office of
Inspector General (OIG), performed a financial audit, as requested by Office of Job Corps, of
expenses claimed by Vinnell Corporation (Vinnell) to operate the Hubert H. Humphrey Job Corps
Center (HJCC) under contract number 5-JC-767-27 for the period June 1, 1999 through
May 31, 2000. Our audit objective was to determine if the Consolidated Schedule of Net Center
Operation Expense Categories reported by Vinnell for HJCC was presented fairly in accordance with
Federal requirements. A sub-objective of the audit was to determine the reason for the reported cost
overrun of $86,683.

Vinnell is a for-profit corporation located in Fairfax, Virginia. The education and training group operates
eight Job Corps centers located throughout the United States. DOL awarded Vinnell a two-year
contract with provisions for three additional option years to operate HJCC, located in St. Paul,
Minnesota, for a total of $26,453,032 covering the period of June 1, 1996 through
May 31, 2001.

Audit Results

In our opinion, the Consolidated Schedule of Net Center Operation Expense Categories
(Exhibit A) presented fairly, the results of HJCC’s operations in accordance with applicable laws and
regulations for the period June 1, 1999 through May 31, 2000. Expenses of $5,917,520 claimed by
Vinnell were reasonable, allocable, and allowable. However, we noted a reportable condition for
accurate reporting of monthly expenses on Form 2110.

The reported cost overrun of $86,683 for the year ended May 31, 2000, was caused by an increase in
personnel expenses. Due to employee turnover and difficulty in attracting new employees, HJCC had
to increase salary levels to attract new employees.

Recommendation

We recommend that the Assistant Secretary for Employment and Training ensure HJCC develops
controls to ensure all center expenses are reported accurately.

Vinnell Response

The Vice President and CFO responded to our draft report on March 12, 2001. He concurred with
our findings and stated that controls were implemented to ensure costs will be reported in a timely and
accurate manner. The response has been incorporated in the report and is also included in its entirety
as an Appendix.


                                                     1
                                     INTRODUCTION


                                           Job Corps was established in 1964 and is presently authorized
          BACKGROUND                       under Title I, Subtitle C of the Workforce Investment Act of
                                           1998. The overall purpose of the program is to provide
                                           economically disadvantaged youth aged 16 to 24 with the
opportunity to become more responsible, employable citizens. With annual funding over $1 billion, Job
Corps is the largest Federal youth employment and training program. Job Corps provides total support
for participants including basic education and vocational classes; dental, medical and eye care; social
skills training; meals; recreational activities; counseling; student leadership activities; and job placement
services.

Vinnell is a for-profit corporation located in Fairfax, Virginia. The education and training group
operates eight Job Corps centers located throughout the United States. DOL awarded Vinnell a two-
year contract with provisions for three additional option years to operate HJCC, located in St. Paul,
Minnesota, for a total of $26,453,032 for the five years covering the period
June 1, 1996 through May 31, 2001.


                                     The objective was to determine if the Consolidated Schedule
                                     of Net Center Operation Expense Categories reported by
       AUDIT OBJECTIVE
                                     Vinnell for HJCC was presented fairly in accordance with
                                     Federal requirements. A sub-objective of the audit was to
                                     determine the reason for the reported cost overrun of $86,683
for the period June 1, 1999 through May 31, 2000.


                                          We audited expenses of $5,917,520 claimed under contract
       AUDIT SCOPE AND                    number 5-JC-767-27 for the period June 1, 1999 through
        METHODOLOGY                       May 31, 2000.

We obtained an understanding of HJCC’s internal controls through inquires with appropriate personnel,
inspection of relevant documentation, and observation of HJCC operations. The nature and extent of
our testing were based on the risk assessment.

We examined center operation expenses, public vouchers, general ledgers and supporting
documentation including vouchers and invoices. We used monetary unit sampling techniques to test
individual account transactions. Testing was expanded in accounts when errors exceeded the expected
error rate. We audited $797,665 or13 percent of reported expenses of $5,917,520. Using a

                                                      2
combination of monetary unit sampling and judgmental sampling techniques, we examined $620,359 or
29 percent of reported non-personnel expenses which totaled $2,122,145. In addition, using primarily
monetary unit sampling, we examined $177,306 or 5 percent of reported personnel expenses totaling
$3,795,375. We did not audit performance measurements of HJCC.

The audit was performed using criteria we considered relevant. Criteria included the Code of Federal
Regulations Title 20, the Federal contract cost principles set forth in the Federal Acquisition Regulation,
Part 31, and Job Corps Policy and Requirements Handbook (PRH). Also, all other requirements in the
current contract were used as criteria in evaluating the allowability of expenses claimed.

We conducted our audit in accordance with generally accepted auditing standards and standards
applicable to financial statements contained in Government Auditing Standards, issued by the
Comptroller General of the United States. We conducted fieldwork from October 2, 2000 to
December 21, 2000, at Vinnell Corporation’s headquarters located in Fairfax, VA. We held an exit
conference with Vinnell management on December 21, 2000.




                                                     3
Mr. Raymond J. Uhalde
Deputy Assistant Secretary for Employment and Training
U.S. Department of Labor
200 Constitution Avenue, N.W.
Washington, D.C. 20210


                              INDEPENDENT AUDITORS’ REPORT

We audited the Consolidated Schedule of Net Center Operation Expense Categories (Exhibit) for
the period June 1, 1999 through May 31, 2000, under DOL contract number 5-JC-767-27. The
expenses claimed are the responsibility of Vinnell Corporation management. Our responsibility is to
express an opinion on the reported expenses based on our audit.

We conducted our audit in accordance with generally accepted auditing standards and Government
Auditing Standards issued by the Comptroller General of the United States. These standards require
that we plan and perform the audit to obtain reasonable assurance about whether reported expenses
are free of material misstatements. An audit includes examining, on a test basis, evidence supporting the
reported expenses. An audit also includes assessing the accounting principles used and significant
estimates made by management, as well as evaluating the overall presentation of the reported expenses.
We believe our audit provides a reasonable basis for our opinion.

The Consolidated Schedule of Net Center Operation Expense Categories was prepared in
conformity with accounting practices prescribed by the Job Corps’ Policy and Requirements
Handbook, Chapter 9, Financial Management, which is a comprehensive basis of accounting other than
generally accepted accounting principles. Allowable expenses are established by Federal regulations.

Opinion on Financial Statement

In our opinion, the Consolidated Schedule of Net Center Operation Expense Categories presents
fairly, in all material respects, the results of the HJCC’s operations in accordance with applicable laws
and regulations for the period June 1, 1999 through May 31, 2000.

Report on Internal Control

In planning and performing our audit, we considered Vinnell Corporation’s internal control over
financial reporting in order to determine our auditing procedures for the purpose of expressing our
opinion on reported expenses and not to provide assurances on the internal control over financial
reporting. Our consideration of the internal control over financial reporting would not necessarily
disclose all matters in the internal control over financial reporting that might be material weaknesses.

                                                     4
However, we noted certain matters involving the internal control over financial reporting and its
operation that we consider to be reportable conditions. Reportable conditions involve matters coming
to our attention relating to significant deficiencies in the design or operation of the internal control over
financial reporting that, in our judgment, could adversely affect Vinnell Corporation’s ability to record,
process, summarize, and report financial data consistent with the assertions of management in the
financial statements. The reportable condition is described in the Findings and Recommendation
section of this report.

Our consideration of the internal control over financial reporting would not necessarily disclose all
matters in the internal control over financial reporting that might be material weaknesses. A material
weakness is a condition in which the design or operation of one or more of the internal control
components does not reduce to a relatively low level the risk that misstatements in amounts that would
be material in relation to the financial statements being audited may occur and not be detected within a
timely period by employees in the normal course of performing their assigned functions. However, we
believe that the reportable conditions described in the
Findings and Recommendation section of this report are not material weaknesses.

Report on Compliance with Laws and Regulations

Compliance with laws, regulations, and contract agreement provisions is the responsibility of Vinnell.
As part of obtaining reasonable assurance about whether reported expenses are free of material
misstatement, we performed tests of Vinnell’s compliance with certain provisions of laws, regulations,
and the contract. However, our objective was not to provide an opinion on overall compliance with
such provisions. Accordingly, we do not express such an opinion. The results of our tests disclosed
instances of noncompliance that are required to be reported under Government Auditing Standards
and which are described in the Findings and Recommendation section of this report.

This report is intended solely for the information and use of Vinnell and ETA and is not intended to be
and should not be used by anyone other than these specified parties.




December 21, 2000




                                                      5
               FINDINGS AND RECOMMENDATION


                                         HJCC understated payroll expenses by $277,000 for the
 I.     Financial Reporting              month of January 2000. The error was made because
                                         HJCC accrued payroll expenses of $112,846 in December
                                         1999 and reversed the accrual in January 2000, for
$389,846. As a result, payroll expenses of $37,000 were reported for the month of January 2000,
when payroll expenses generally average $300,000 per month. This error was subsequently detected
by Vinnell personnel and cumulatively corrected on the April 2000 submission to Job Corps.

Job Corps Policy and Requirements Handbook, Chapter 9: Financial Management; Appendix 901,
Section B, Item 3, states:

       Contract centers are required to report actual expenses on a monthly basis. For center
       financial management and Job Corps monitoring purposes it is important that analysis
       be performed on data that is as current as possible. Moreover, the availability of
       monthly cost data allows an analysis of trends which could not be identified through less
       frequent reporting.

Recommendation

We recommend that the Assistant Secretary for Employment and Training ensure HJCC develop
controls to ensure all center expenses are reported accurately.

Vinnell Response

       Vinnell Corporation concurs with this finding and accepts full responsibility for these
       errors. It is , however, important to note that during the time frame in which these
       errors occurred the 2110 review function was in the process of being transitioned within
       our corporate office from one department to another. A newly created Job Corps
       finance position now performs this function. . . .

       Vinnell has implemented the following processes to ensure costs are reported in a timely
       and accurate manner:

       a.       A checklist was created. This requires centers to verify that costs reported on
               their 2110 matches the amounts recorded at the corporate office. . . .

       b.      A designated member of the corporate finance department reviews the
               completed checklist that is provided with the copy of the 2110 to the corporate
               office at the same time the report is submitted to DOL. . . .

                                                6
       c.      Each center submits a report of current period costs and a month-to-month cost
               comparison to Vinnell’s corporate office by the 15th of the month. . . .

                                        As requested by the Office of Job Corps, we examined the
 II.     Other Matter-Cost              reason for the reported cost overrun of $86,683 for HJCC
         Overrun of $86,683             for the year ended May 31, 2000. The reported cost
                                        overrun of $86,683 was caused by personnel expenses
which were in excess of the budget by $171,169 and offset by other costs which were under budget
by $84,486.

Due to employee turnover and difficulty in attracting new employees, HJCC increased salary levels to
attract new employees. Generally, new position starting salaries were forecasted at or near the lower
level of the salary grade. Our testing of personnel expenses revealed that new hires were hired at
starting salaries at a higher level.




                                                  7
                                                                   Exhibit

              Hubert H. Humphrey Job Corps Center
Consolidated Schedule of Net Center Operation Expense Categories
                 June 1, 1999 To May 31, 2000



         Center Operation              Reported
        Expense Categories             Expenses

 Education Personnel                   $346,897
 Other Education                         45,835
 Vocational Personnel                   463,887
 Other Vocational                       145,918
 Social Skills Personnel               1,148,632
 Other Social Skills                     99,409
 Food                                   343,803
 Clothing                                80,295
 Support Service Personnel              268,363
 Other Support Services                 113,672
 Medical/Dental Personnel               301,466
 Other Medical/Dental                    33,149
 Administrative Personnel               660,170
 Other Administration                   249,289
 Contractor’s G&A                       296,595
 Facility Maintenance Personnel         230,267
 Other Facility Maintenance             161,382
 Security Personnel                     375,694
 Other Security                            7,988
 Communications                          51,188
 Utilities and Fuel                     169,568
 Insurance                                 7,072
 Motor Vehicle                           29,560
 Travel and Training                     44,366
 Contractor’s Fee                       243,055
 Net Center Operations                $5,917,520




                                  8
